Audit of Certain USAID/Bolivia Fiscal
Year 2001 Financial Operations

Audit Report No. 1-511-02-002-F

May 3, 2002




        Regional Inspector General / San Salvador
U.S. A GENCY FOR
INTERNATIONAL
 DEVELOPMENT

RIG/San Salvador


May 3, 2002

MEMORANDUM
FOR:               USAID/Bolivia Director, Liliana Ayalde

FROM:              Acting Regional Inspector General, Steven H. Bernstein

SUBJECT:           Audit of Certain USAID/Bolivia Fiscal Year 2001 Financial
                   Operations (Report No. 1-511-02-002-F)


This memorandum is our report on the subject audit.

This report does not contain any recommendations for your action. Your comments
to our draft report have been included, in their entirety, as Appendix II.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   1
Table of   Summary of Results                                       3
Contents
           Background                                               3

           Audit Objectives                                         3

           Audit Findings                                           4

                  Were USAID/Bolivia’s advances and disbursements
                  processed in accordance with USAID policies and
                  applicable laws and regulations?                  4

                         Check Data Needs to be Entered Into
                         MACSTRAX                                   5

           Management Comments and Our Evaluation                   5

           Appendix I - Scope and Methodology                       6

           Appendix II - Management Comments                        10




                                                                         2
 Summary of       As part of its fiscal year 2002 audit plan, the Regional Inspector General/San
 Results          Salvador performed this audit to determine whether USAID/Bolivia’s advances
                  and disbursements were processed in accordance with USAID policies and
                  applicable laws and regulations (see page 4).

                  Overall, USAID/Bolivia’s advances and disbursements were processed in
                  accordance with USAID policies and applicable laws and regulations (see pages 4
                  and 5).

                  However, over a third of the time check data, which is needed to provide a
                  complete record of compliance with prompt payment requirements, was not
                  entered into the electronic voucher tracking system (see page 5).

                  USAID/Bolivia agreed with the report and our findings (see page 5).


 Background       This report focuses on USAID/Bolivia’s procedures for processing advances and
                  disbursements. During fiscal year 2001, USAID/Bolivia made 442 advances, with
                  a total amount of $16.5 million. During the same year, USAID/Bolivia made
                  14,477 disbursements with a total amount of $105 million1 . These transactions
                  include those from USAID/Brazil and USAID/Paraguay since USAID/Bolivia is
                  the accounting station for these two missions.

                  USAID/Bolivia’s Office of the Controller, which is the focal point in USAID/Bolivia
                  for financial operations, has 25 staff including a Controller, Deputy Controller, five
                  financial analysts, six voucher examiners, one payment coordinator, five accountants,
                  two supervisors, three secretaries and one file clerk.




Audit Objective   As part of its fiscal year 2002 audit plan, the Regional Inspector General/San
                  Salvador performed an audit to answer the following audit objective:

                  •     Were USAID/Bolivia’s advances and disbursements processed in accordance
                        with USAID policies and applicable laws and regulations?

                  Appendix I describes the audit scope and methodology.




                  1
                      As explained in Appendix I

                                                                                                       3
Audit Findings   Were USAID/Bolivia’s advances and disbursements processed in accordance
                 with USAID policies and applicable laws and regulations ?

                 USAID/Bolivia’s advances and disbursements were properly processed in
                 accordance with USAID policies and applicable laws and regulations, except that
                 check data needed to be entered into the mission’s MACSTRAX 2 payment tracking
                 system.

                 With respect to advances, based on an examination of sample transactions as
                 described in Appendix I:

                 •   Advance requests were approved by project officers as required.

                 •   Advance requests were reviewed and approved by Controller’s Office personnel
                     in accordance with USAID policies and procedures.

                 •   Advances were certified by the authorized certifying officer as required.

                 •   The amount advanced agreed with the supporting documentation for all
                     advances.

                 Regarding advances, the audit showed that the mission had internal controls in place
                 to limit the advances provided to 30 days’ cash needs.

                 With respect to disbursements, based on a review of sample transactions as described
                 in Appendix I:

                 •   All vouchers were annotated with the date they were received.

                 •   Payments were made on time in all but one project-type payment in our sample
                     and the mission paid the appropriate interest on this payment. All
                     administrative-type payments 3 were made on time.

                 •   All of the vouchers were arithmetically correct.

                 •   Payments were made to correct payees.

                 2
                  MACSTRAX is an electronic voucher tracking system within the Mission Accounting and
                 Control System (MACS).
                 3
                   For audit purposes we defined project-type and administrative-type payments as follows: (1)
                 project-type payments are expenses of assistance activities that are not of a routine nature and
                 typically involve relatively large dollar amounts; and (2) administrative-type payments are
                 expenses charged to operating expense appropriations, such as travel vouchers, salary, lease, and
                 utility expenses, and other payments of a routine nature for relatively small dollar amounts.

                                                                                                                     4
                 •   All payments were substantially in compliance with the underlying
                     agreements.

                 •   Payment information was recorded correctly in the accounting system and
                     payment tracking system for all payments.

                 However, as discussed in the following section, USAID/Bolivia check data needed to
                 be entered into MACSTRAX.

                 Check Data Needs to be Entered Into MACSTRAX

                 Automated Directives System (ADS) 630 states that voucher tracking systems
                 should facilitate timely payment of invoices in accordance with the Prompt
                 Payment Act. MACSTRAX check data is needed to provide a complete record of
                 mission compliance with prompt payment requirements. This data also serves to
                 settle payment disputes with vendors. Check data, which provides the date of
                 payment, the check number and exchange rates, was not entered into MACSTRAX
                 in 37 percent of the items tested. USAID/Bolivia Financial Management (FM)
                 officials told us that previously their MACSTRAX coordinator entered check data
                 manually. However, this position was eliminated and this duty was performed
                 intermittently by a secretary and a temporary employee. Subsequently, FM
                 officials stated that a new MACSTRAX coordinator was hired in January. FM
                 officials provided documentation to demonstrate that entering this check data is
                 one of the specified tasks for this employee. Since the mission has already taken
                 corrective action we are not making a recommendation.



Management       USAID/Bolivia agreed with the report and findings in its comments to our draft
Comments and     report.
Our Evaluation




                                                                                                  5
                                                                                       Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted an audit of certain
              USAID/Bolivia fiscal year 2001 financial operations. The audit was performed in
              accordance with generally accepted government auditing standards at
              USAID/Bolivia from November 26, 2001 through December 13, 2001.

              The audit examined USAID/Bolivia’s fiscal year 2001 financial operations related to
              cash advances and disbursements. It did not cover any other USAID/Bolivia
              financial operations.

              We used statistical sampling techniques to draw the samples used in this audit. A 90
              percent confidence level with plus or minus 5 percent precision limit and expected
              occurrence rate of 5 percent was used for all samples. For advances, this resulted in
              a sample of 40 items for project-type advances and 44 items for administrative-type
              advances. For disbursements, the initial sample was 47 project-type sample items
              and 52 administrative-type sample items. However, regarding disbursements, due to
              time constraints we were unable to review all items in the original random sample.
              As a result, we judgmentally selected from the original sample 30 items for project-
              type payments and 10 items for administrative-type payments.

              We assessed the mission’s risk exposure and management controls over the
              advance and payment processes. We interviewed USAID/Bolivia officials and
              reviewed the mission’s self-assessment of its adherence to the Federal Managers’
              Financial Integrity Act of 1982 in its October 2001 report. The following mission
              controls over advances and disbursements were then assessed. Regarding advances,
              we determined (1) whether the recipient requested advances, (2) if mission personnel
              reviewed the recipient’s request for advances for compliance with the underlying
              agreement, (3) if the mission analyzed the recipient’s advance request for
              reasonableness, (4) if approvals by the project officer and certifications by the
              controller’s office staff were obtained. In regards to disbursements we determined
              (1) whether vouchers were correctly received, (2) if vouchers were reviewed for
              accuracy and correctly processed, (3) if approvals by the project officer and
              certifications by the controller’s office staff were obtained, and (4) if these
              transactions were correctly entered into the Mission Accounting and Control
              System.

              As part of the audit, we also assessed compliance with the Office of Management
              and Budget, 5 Code of Federal Regulations part 1315, Prompt Payment; Final
              Rule. We did not assess compliance with any other laws and regulations
              applicable to the audit objective.




                                                                                                  6
                                                                               Appendix I


Methodology

The audit objective was to determine if USAID/Bolivia’s advances and
disbursements were properly processed in accordance with USAID policies and
applicable laws and regulations.

In examining advances, we used queries developed by USAID/Bolivia’s Chief
Accountant to obtain from the Mission Accounting and Control System (MACS)
a list of all advances by USAID/Bolivia during fiscal year 2001. We compared
the total advances from the U-1014 to the list of advances from the queries to
verify that this list was complete.

In examining advances, we reviewed a random sample of 40 project-type and 44
administrative-type advances during fiscal year 2001. The population of all
advances made during fiscal year 2001 and the sample of project and
administrative advances we reviewed are compared in the following table:

    Population                                            Number             Amount
                                                                            (millions)
    Project-type Advances                                          173               $12.9
    Administrative-type Advances                                   269                 $3.6
    Total                                                          442               $16.5

    Sample                                                Number             Amount
                                                                            (millions)
    Project-type Advances                                           40                   $3.2
    Administrative-type Advances                                    44                   $1.3
    Total                                                           84                   $4.5

For each sample item, we reviewed documentation and interviewed
USAID/Bolivia personnel to verify that:

•     Requests for advances were approved by the project officer,

•     The Controller’s Office certified the advances for payment,

•     Vouchers were reviewed and approved by Controller’s Office personnel
      consistent with USAID/Bolivia and USAID policies and procedures,

•     Amounts advanced agreed with the supporting documentation, and

•     Periods covered by the advances were in accordance with USAID policies.


4
 The U-101 report is a standard financial report produced by MACS and is the Summary of
Budget Allowance Ledger Transactions and Reconciliation with Disbursing Office Accounts.

                                                                                                7
                                                                          Appendix I

In examining disbursements, we used queries developed by USAID/Bolivia’s
Chief Accountant to obtain from MACS a list of all disbursements during fiscal
year 2001. We compared the total disbursements from the U-101 to the list of
disbursements from the queries to verify that this list was complete. We noted a
difference of $665,965 (0.63 percent) between the queries and the U-101. With
the assistance of USAID/Bolivia, we tried to determine the reasons for this
difference, but could not. Due to time constraints, we used the results of the
queries to conduct the audit. We divided the list into project-type disbursements
and administrative-type disbursements.

We made this distinction by including all operating expense disbursements, as
well as payments under travel authorizations, personal services contracts,
participating agency service agreements, payment requests, and certain On-line
Payment and Collection (OPAC) charges in the latter group.

We then drew two samples of disbursements for detailed review. Our method for
selecting the samples is explained in the scope section. Since project-type
disbursements present a higher degree of inherent risk and because of their relatively
high value and non-routine nature, we drew a sample of 30 project-type
disbursements. Because administrative-type disbursements present a lower degree
of inherent risk, we drew a sample of 10 administrative-type disbursements for
detailed review. The populations and samples reviewed are compared in the
following table:

 Population                                             Number             Amount
                                                                          (millions)
 Project-type disbursements                                      499               $47.9
 Administrative-type disbursements                            13,770               $11.7
 Online Payments and Collections (OPAC)                          208               $45.4
 Total                                                        14,477              $105.0

 Sample                                                 Number             Amount
                                                                          (millions)
 Project-type disbursements                                       30              $1.700
 Administrative-type disbursements                                10               $.002
 Total                                                            40              $1.702



For each sample item, we performed the following steps:

•   Verified that the date the voucher was received was annotated on the face of
    the voucher.

•   Traced each voucher through the payment process from the time it was
    received until it was paid, noting the dates it was received, certified for
    payment, and actually paid.


                                                                                      8
                                                                      Appendix I

•   Verified the arithmetical accuracy of each voucher.

•   Compared the payment request with the terms and provisions of the
    underlying contract, agreement, or appropriate commitment document to
    verify that the payment request was in compliance with the contract or
    agreement.

•   Compared the payee shown in the payment request to the payee shown in the
    contract or agreement.

•   Verified that each payment was made within the time permitted for payment
    (generally 30 days unless the contract or agreement provides for a different
    payment period) and that interest was added to any late payments.

•   Compared the information recorded in the MACS and the payment tracking
    system for each payment to source documents to verify that the information
    was accurate.

In performing the audit tests described above, we considered non-compliance
exceeding 5 percent of the cases reviewed (by number) to represent material non-
compliance.




                                                                                   9
                                                                                 Appendix II


Management
Comments
                                                  UNITED STATES GOVERNMENT
                                                                        Memorandum
                                                                     FMO-02/159

             DATE :        April 22, 2002

             REPLY TO
             ATTN OF :     Liliana Ayalde, USAID Bolivia Mission Director

             SUBJECT:      Audit of Certain USAID/Bolivia Fiscal Year 2001 Financial
                           Operations (Report No. 1-511-02-0XX-F)

             TO:           Tim Cox, Regional Inspector General/San Salvador


             This memorandum is our response to the draft report on subject audit which
             contained no fundings.

             We noted your comment on check data that needed entry into Macstrax. Please be
             advised that in January 2002 our new Macstrax Coordinator was hired. As of
             today, all check data has been entered into Macstrax and is current.

             We request that you include these comments in your final report.




                                                                                          10
